                             CLOSEOUT FOR M-94050020




this fish; 2) submitted and published duplicate papers to different journals on several occasions;
and 3) retaliated against him and one of his colleagues after they disagreed with the subject's
work. According to the complainant, an investigation of the subject's behavior was under way
at the institution.

       OIG reviewed the NSF computerized proposal and award files to see if the subject or any
of his co-authors on seven relevant publications had ever received any NSF support. We
determined that neither the subject, nor any of his co-authors, ever applied for, or received, NSF
support.

        The National Science Foundation investigates allegations of misconduct involving
"activities funded by NSF" (45 C.F.R. 5689.1). OIG's review of NSF's proposal files
determined that the subject had never applied for funding from NSF.

       This case was closed.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                           Page 1 of 1
